CERTIFICATE OF SERVICE
No.
IN THE
SUPREME COURT of the UNITED STATES

ROGER DEAN WALDNER,
Petitioner,
v.
BRADLEY R. HARTKE; DOUGLAS P. HARTKE; JOAN L. HARTKE,
INDIVIDUALLY AND AS TRUSTEES OF THE JOAN L. HARTKE QTIP MARITAL
TRUST DATED 7/12/1996 AND AS TRUSTEES OF THE ROBERT EUGENE
HARTKE FAMILY TRUST DATED 7/12/1996; THE JOAN L. HARTKE QTIP
MARITAL TRUST DATED 7/12/1996; THE ROBERT EUGENE HARTKE FAMILY
TRUST DATED 7/12/1996,
Respondents.
As required by Supreme Court Rule 29.5,1 certify that I served three (3)
copies of the petition for a writ of certiorari on the attorneys for the Respondents at
the address below.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 1, 2020

Roger Dean Waldner
David W. Larson, # 60495
John Paul Martin, # 68068
332 Minnesota Street, Suite W2750
St. Paul, MN 55101
Telephone: (651) 767-3740
ATTORNEYS FOR RESPONDENTS

